OIG Audit Report GR-60-08-008

Office of Justice Programs National Institute of Justice Cooperative Agreements Awarded to the North Dakota Office of the Attorney General, Bismarck, North Dakota 

Audit Report GR-60-08-008


July 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Convicted Offender DNA Backlog Reduction Program (Program), Cooperative Agreement No. 2006‑DN‑BX‑K233 in the amount of $52,500, and Cooperative Agreement No. 2007‑DN‑BX‑K003 in the amount of $57,200, awarded by the Office of Justice Programs (OJP), National Institute of Justice (NIJ), to the North Dakota Office of the Attorney General. The purpose of the award is to accelerate the analysis of convicted offender samples collected by states in order to provide compatible data for local, state, and national DNA databases so that law enforcement is provided with critical investigative information in a timely manner.
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. As a component of OJP, the NIJ is dedicated to the mission of advancing scientific research, development and evaluation to enhance the administration of justice and public safety.
The North Dakota Crime Laboratory was originally part of the State Laboratories Department that was created by the Legislature in 1901. During the mid-1960s, the North Dakota Crime Laboratory began accepting forensic samples submitted by law enforcement agencies; the majority were LSD and marijuana. Then in 1987 the Crime Laboratory moved to the Department of Health and in 1993 the Legislature added toxicology. Finally, in 2003 the Crime Laboratory was moved to the Office of the Attorney General. According to North Dakota’s website, “ The Crime Laboratory provides scientific support to the state's criminal justice system through the analysis, identification, and comparison of physical evidence used in the investigation and prosecution of criminal offenses.”
The purpose of this audit was to determine whether reimbursements claimed for costs under the cooperative agreement were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the cooperative agreement, and to determine program performance and accomplishments. As a result, we reviewed performance in the following areas: (1) internal control environment; (2) drawdowns; (3) cooperative agreement expenditures; (4) budget management and control; (5) Financial Status Reports (FSRs), Categorical Assistance Progress Reports (progress reports), and Performance Metric Reports (metric reports); (6) cooperative agreement requirements; and (7) program performance and accomplishments. We determined that payroll, matching costs, accountable property, indirect costs, program income, contractors, and subgrantees were not applicable to these cooperative agreements. 
As shown in the table below, the North Dakota Office of the Attorney General was awarded a total of $109,700 to implement the Program.
 TABLE 1: CONVICTED OFFENDER DNA BACKLOG REDUCTION PROGRAM COOPERATIVE 
AGREEMENTS TO THE NORTH DAKOTA OFFICE OF THE ATTORNEY GENERAL 


 AWARD 
START DATE 
END DATE 
AMOUNT 


 2006-DN-BX-K233 
 10/01/2006 
 12/31/2007 
 $52,500 


 2007-DN-BX-K003 
 10/01/2007 
 09/30/2008 
 57,200 


 Total: 
 $109,700

Source: Office of Justice Programs
We examined North Dakota’s accounting records, financial and progress reports, and operating policies and procedures and found:

One FSR covering the Report Period April 1 through June 30, 2007 was submitted 1 day late. North Dakota officials informed us that it was submitted late by mistake due to a miscommunication about the due date and have since addressed this issue and filed recent reports timely. 
The required metric reports, while containing the relevant information, were filed late, in some instances by significant periods of time. However, North Dakota officials explained that the Grant Management System (GMS) only allowed the performance metric reports to be submitted semiannually. Additionally, OJP officials explained that grantees of 2006 cooperative agreements were instructed to start submitting quarterly performance data with their semi-annual report. Therefore, the North Dakota Office of the Attorney General submitted the reports semi-annually instead of quarterly and we make no recommendation for corrective action.

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I. 







Return to OIG Home Page